                                                        EVALUATION




           OFFICE OF 

           INSPECTOR GENERAL
           U.S. DEPARTMENT OF THE INTERIOR




  WHEREABOUTS UNKNOWN
  An evaluation of actions taken to locate Whereabouts Unknown
  individuals by the Office of the Special Trustee for American Indians




Report No. WR-IS-OST-0006-2009                               June 2010
 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

Cover photo: Office of the Special Trustee, Albuquerque, NM
              OFFICE OF 

              INSPECTOR GENERAL 

              U.S.DEPARTMENT OF THE INTERIOR



                                                                                JUN 1 0 2010
Memorandum

To: 	          Larry EchoHawk
               Assistant Secretary for Indian Affairs

               Donna M. Erwin
               Acting Special Trustee ~
                                      for American Indians?;J1'


                                                  ~
                                            ~ 	                       ,     /
From: 	        Mary L. Kendall '---vf.             ,
               Acting Inspector General

Subject: 	     Whereabouts Unknown: An evaluation of actions taken to locate Whereabouts
               Unknown individuals by the Office of the Special Trustee for American Indians
               (Report No. WR-IS-OST-0006-2009)

        This memorandum transmits our report detailing the results of our evaluation of the
Office of the Special Trustee for American Indians' (OST) actions to locate Individual Indian
Money (lIM) accounts holders known as Whereabouts Unknown individuals. Specifically, our
objective was to determine the Whereabouts Unknown status of those top 100 account holders
located by private investigators during 2005 through 2007.

         The Department of the Interior Office ofInspector General (OIG) reviewed OST's 2005­
2007 contract with the private investigation firms that worked to locate the top 100 account holders
and found that 10 of the 31 located account holders still appeared on the Whereabouts Unknown
list 3 years later. One of the account holders had already received access to their account but
OST had not yet removed them from the list. The remaining nine individuals had trust accounts
totaling approximately $660,000; their accounts ranged from $40,000 to $150,000. The majority
of these individuals suffer from mental disabilities and physical impairments, adding to the
complexity of the reconciliation process as it requires additional coordination with the Bureau of
Indian Affairs (BIA) or Tribal Social Services. After sharing our initial results with Departmental
officials, we verified that OST has reconciled eight of these accounts and contacted the guardians
of the ninth account holder inforrning them that the account is available should the funds be
needed.

         Although OST and other DOl agencies have addressed the cases identified by the OIG,
the underlying issue of poor communication between these agencies continues to impede OST's
ability to reconcile its Whereabouts Unknown list. Specifically, we found that while OST fiduciary
trust officers are responsible for resolving Whereabouts Unknown accounts, their ability to do so is
dependent upon communication with, and actions from, a variety ofBlA and Tribal offices.
Without timely communication and action, heavy workloads and competing priorities in these



                                Office of Inspector General I Washington . DC
agencies result in cases being lost or abandoned, leading to the perpetuation of Whereabouts
Unknown status for located individuals.

        Complicating resolution of some of these cases, we found that guardians of Whereabouts
Unknown account holders are sometimes hesitant to resolve the cases as eligibility determinations
for Supplemental Security Income and Medicaid benefits vary among states. While the American
Recovery and Reinvestment Act provides that supervised IIM accounts should be excluded when
determining Medicaid eligibility, an official at Health and Human Services confirmed that some
states are not complying with the law.

       The report contains three recommendations which, if implemented, will serve to improve
individuals’ access to their IIM accounts.

       Should you have any questions about this report, please do not hesitate to contact me at
(202) 208-5745.




                               Office of Inspector General | Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction............................................................................................................. 2

   Objective ............................................................................................................. 2

   Background ......................................................................................................... 2

Findings................................................................................................................... 5

   Lack of Communication among Interior Agencies Perpetuates Whereabouts

   Unknown Status .................................................................................................. 5

   Eligibility Requirements for SSI and Medicaid Applied Inconsistently............ 6

Conclusion and Recommendations......................................................................... 8

   Conclusion........................................................................................................... 8

   Recommendations ............................................................................................... 8

Appendix 1: Scope and Methodology..................................................................... 9

Results in Brief
Between 2005 and 2007, the Department of the Interior’s (DOI) Office of the
Special Trustee for American Indians (OST) paid private investigation firms
Lamar Associates and the Vander Weele Group more than $1 million to track
down high-dollar account holders on its “Whereabouts Unknown” list. The list
includes individual Indian trust account holders who OST cannot locate. Lamar
Associates focused on locating the top 100 Whereabouts Unknown account holders,
and the Vander Weele Group looked at the top 4,000.

To determine the Whereabouts Unknown status of the located top 100 account
holders, the DOI Office of Inspector General (OIG) reviewed OST’s
2005-2007 contract with the private investigation firms and found that 10 of the 31
missing account holders still appeared on the list 3 years later. One of the account
holders had already received access to their account but OST had not yet removed
them from the list. The majority of the remaining nine individuals suffer from
mental disabilities and physical impairments, adding to the complexity of the
reconciliation process as it requires additional coordination with the Bureau of
Indian Affairs (BIA) or Tribal Social Services.

We shared our initial findings with the Acting Special Trustee for American
Indians and the Deputy Assistant Secretary for Management at Indian Affairs. We
have since verified that OST has reconciled the Whereabouts Unknown status for
8 of these 9 account holders. The one account that is still on the Whereabouts
Unknown list is there because of the account holder’s sensitive situation. BIA
Social Services and OST have informed the account holder’s guardians, however,
that the account is available should they need it.

Although OST and other DOI agencies have addressed the cases identified by the
OIG, the underlying issue of poor communication between these agencies
continues to impede OST’s ability to reconcile its Whereabouts Unknown list.
Without timely communication, heavy workloads and competing priorities in
these agencies result in cases being lost or abandoned, leading to the perpetuation
of Whereabouts Unknown status for located individuals.

Complicating resolution of these accounts, we found that guardians of Whereabouts
Unknown account holders are sometimes hesitant to resolve the cases as eligibility
determinations for Supplemental Security Income (SSI) and Medicaid benefits vary
among states. In one case we reviewed, SSI and Medicaid benefits were terminated
because of the existence of a supervised Individual Indian Money (IIM) account.




                                                                                   1
Introduction
Objective
The objective of our evaluation was to determine the Whereabouts Unknown
status of those top 100 account holders located by private investigators during
2005 through 2007.

Background
Interior’s Trust Responsibility
In 1994, the American Indian Trust Fund Management Reform Act established
the Department of the Interior’s (DOI) Office of the Special Trustee for American
Indians (OST) to improve DOI’s management of the Indian fiduciary trust. The
Bureau of Indian Affairs (BIA) manages the largest land trust in the United States,
consisting of approximately 56 million acres of land. About $3.4 billion in trust
funds generated from these lands through leases, use permits, land sales, and
interest is managed by OST for approximately 378,000 trust account holders.

Trust accounts can be restricted or unrestricted. Unrestricted accounts are those
for which the account holders manage the money. Trust accounts are commonly
restricted when a “representative payee” or guardian has been appointed to an
account, when an adult account holder is deemed in need of assistance, or when a
court finds that an account holder is not of sound mind. Restricted accounts may
also be supervised, in which case BIA must approve all disbursements from the
account.

For supervised accounts, either BIA or Tribal Social Services is required to
conduct an assessment of the individual and develop a distribution plan that
outlines allowable expenses. Social Services must also give the account holder
notice that it intends to restrict the account, giving the account holder the
opportunity to request a hearing to challenge the restriction. 

Accounts for which the location of the account holder is unknown are put on a
“Whereabouts Unknown” list. As of December 31, 2009, there were 82,638
accounts on the list. Over 80 of the Whereabouts Unknown accounts have
balances over $50,000 (see Figure 1). Some names end up on the list when mail is
returned to OST after people move or when estates go to probate and the location
of heirs is undetermined. This list is accessible to the public at
http://www.doi.gov/ost.




                                                                                  2
Whereabouts Unknown Accounts
(December 31, 2009)
                             Number of
    Account Balance
                             Accounts
 Equal to or over $100,000          24
 Under $100,000 and
                                       58
 equal to or over $50,000
 Under $50,000 and
                                    3,146
 equal to or over $5,000
 Under $5,000 and
                                    7,035
 equal to or over $1,000
 Under $1,000 and
                                   14,594
 equal to or over $100
 Under $100 and
                                   26,203
 equal to or over $1
 Under $1                          31,578
 Total                            82,638

Figure 1. Stratification of Whereabouts Unknown IIM accounts as of December 31, 2009.
Data obtained from OST’s Status Report to the Court, Number Thirty-Nine.

OST struggles to keep up with the Whereabouts Unknown list as it is often
growing and always changing. In an attempt to reconcile the list of Whereabouts
Unknown, in 2005 through 2007, OST paid private investigation firms Lamar
Associates and the Vander Weele Group more than $1 million to track down
high-dollar account holders. OST also established a beneficiary call center and a
returned mail program.

According to the OST employee who manages the call center, it has received over
443,000 calls since its inception, and 92 percent of those were resolved
immediately. OST trust officers in the field also actively conduct outreach at local
events to locate Whereabouts Unknown account holders.

OST implemented an information system that is used to track the status of
Whereabouts Unknown cases and to ensure accounts are properly closed out.
According to OST, between 2006 and 2009, it located over 91,000 account
holders with accounts totaling $101.5 million. In 2009, for the first time in almost
5 years, OST was able to resolve more accounts than those added (see
Figure 2). 




                                                                                        3
                               Whereabouts Unknown Accounts

                      90,000

                      80,000

 Number of Accounts   70,000

                      60,000                                               Accounts
                                                                           Added
                      50,000
                                                                           Accounts
                      40,000                                               Resolved
                      30,000                                               Total
                                                                           Accounts
                      20,000

                      10,000

                          0
                               2004   2005   2006    2007    2008   2009
                                             Calendar Year

Figure 2. Number of Whereabouts Unknown accounts added and resolved between 2004
and 2009. Data obtained from OST’s quarterly Status Reports to the Court.




                                                                                      4
Findings
Lack of Communication among Interior Agencies
Perpetuates Whereabouts Unknown Status
We found a pervasive lack of communication among DOI agencies, resulting in
cases being lost or abandoned. While OST fiduciary trust officers are responsible
for resolving Whereabouts Unknown accounts, their ability to do so is dependent
not only upon BIA and Tribal Social Services for assessments, but also the DOI’s
Office of Hearings and Appeals (OHA) for probates and BIA’s Land Title and
Records Office (LTRO) for title changes. Without consistent communication to
share information, heavy workloads and competing priorities in these agencies
result in the perpetuation of Whereabouts Unknown status for located individuals.

In six of the nine cases we reviewed, the failure of Social Services to conduct
assessments in a timely manner was the contributing factor to OST’s inability to
reconcile the Whereabouts Unknown accounts. Such delays spanned up to 3 years
from the time that the individual was located to the time OST removed the
individual from the Whereabouts Unknown list.

We found that the failure of Social Services to conduct assessments in a timely
manner was largely caused by the fact that BIA and the Tribes do not have a system
to track trust account holders who need assessments. After we began questioning
OST and BIA about the delays, assessments were eventually completed for five of
the six cases. In three instances, Social Services had lost the case files. All occurred
within a single field office and were found only after we requested information. In
two instances, social workers simply failed to act on OST’s requests for
assessments. In the sixth case, OST determined that an assessment was not
necessary and resolved the account directly with the account holder. Consequently,
these six cases are now considered resolved and the account holders were removed
from the Whereabouts Unknown list.

OST and BIA have been participating in joint meetings with the intent to improve
communication and cooperation between the organizations, including creating an
interagency handbook. In addition, both trust officers and social workers say that
one solution to communication problems is allowing BIA to access OST’s call
center tracking system. The database could be used by both groups to document
their work and prevent cases from being lost or abandoned.

We also identified a lack of communication between OST and DOI’s OHA and
BIA’s LTRO. The OHA probates Indian trust estates, ensuring that individual
Indian interests in allotted lands, their proceeds, and other trust assets are
conveyed to the rightful heirs and beneficiaries. The LTRO, in direct support of
the trust responsibility, is responsible for maintaining the Indian Land Record of
Title and reporting the status of title to Indian trust and restricted lands. As with


                                                                                        5
Social Services, OST has no control over the extensive delays that are caused by
competing priorities and backlogs in OHA and LTRO.

For example, one account that went to OHA involved an individual in the top 100
that investigators had located and provided to OST in August 2006. The case went
to OHA for settlement. OHA took 6 months to issue a ruling. OHA then referred
the case to LTRO for a title change. Nearly three years later, LTRO finally
reversed the title for the estate, thus allowing OST to remove the account from its
Whereabouts Unknown list.

 Recommendations
     1. Develop and implement procedures that improve the quality and
        frequency of communication between OST, BIA, and Tribal Social
        Services to settle unresolved supervised trust accounts. This includes
        developing and implementing procedures that provide BIA Social
        Services offices across the country access to the OST beneficiary call
        center’s tracking system.
     2. Identify located Whereabouts Unknown high-dollar account holders
        who are waiting for assessments by Social Services or title changes by
        LTRO, and prioritize resolution of these cases.


Eligibility Requirements for SSI
and Medicaid Applied Inconsistently
We also found that guardians of some Whereabouts Unknown account holders are
hesitant to resolve the cases as eligibility determinations for Supplemental
Security Income (SSI) and Medicaid benefits vary among states. SSI is provided
by the Social Security Administration, and Medicaid is provided by the
Department of Health and Human Services (HHS). According to OST and BIA,
supervised IIM accounts should not affect SSI or Medicaid eligibility because
account holders do not have direct access to their accounts. In California, Oregon,
and Washington, we identified supervised IIM account holders that retained their
SSI and Medicaid benefits confirming OST and BIA’s assertions. Conversely, we
identified an account holder in North Dakota who had SSI and Medicaid benefits
terminated due to the existence of a supervised IIM account. According to OST
and BIA officials, supervised IIM accounts are treated similarly in Idaho and New
Mexico.

Effective July 1, 2009, the American Recovery and Reinvestment Act (Recovery
Act) amended the Social Security Act to clarify the eligibility requirements for
Medicaid. In January 2010, the HHS Center for Medicaid and State Operations
sent out the first in a series of guidance memos to state Medicaid directors
regarding implementing the Recovery Act amendments. The guidance states:



                                                                                   6
“If an individual does not have the legal right, authority, or power to liquidate
resources or to use income or resources that the individual owns, that income or
resource is not counted for Medicaid…eligibility because the individual is not
free to access and spend it.”

An official at the HHS Center for Medicaid and State Operations confirmed that
some states are not complying with the requirements of the Recovery Act.


 Recommendation
     3.	 Coordinate with top officials at Health and Human Services and the
         Social Security Administration to ensure that Medicaid and SSI
         eligibility requirements are applied consistently for restricted trust
         account holders with supervised accounts.




                                                                                    7
Conclusion and Recommendations
Conclusion
Although OST and other DOI agencies have addressed the cases identified by the
OIG, the underlying issue of poor communication between these agencies
continues to impede OST’s ability to reconcile its Whereabouts Unknown list.
Specifically, we found that while OST fiduciary trust officers are responsible for
resolving Whereabouts Unknown accounts, their ability to do so is dependent
upon communication with, and actions from, a variety of BIA and Tribal offices.
Without timely communication and action, heavy workloads and competing
priorities in these agencies result in the perpetuation of Whereabouts Unknown
status for located individuals.

Complicating resolution of some of these cases, we found that guardians of
Whereabouts Unknown account holders are sometimes hesitant to resolve the
cases as eligibility determinations for Supplemental Security Income and
Medicaid benefits vary among states. While the American Recovery and
Reinvestment Act states that supervised IIM accounts should be excluded when
determining Medicaid eligibility, an HHS official confirmed that some states are
not complying with the law.

Recommendations
The Acting Special Trustee for American Indians and the Assistant Secretary for
Indian Affairs should: 

   1.	 Develop and implement procedures that improve the quality and
       frequency of communication between OST, BIA, and Tribal Social
       Services to settle unresolved supervised trust accounts. This includes
       developing and implementing procedures that provide BIA Social Services
       offices across the country access to the OST beneficiary call center’s
       tracking system.

   2.	 Identify located Whereabouts Unknown high-dollar account holders who
       are waiting for assessments by Social Services or title changes by LTRO,
       and prioritize resolution of these cases.

   3.	 Coordinate with top officials at Health and Human Services and the Social
       Security Administration to ensure that Medicaid and SSI eligibility
       requirements are applied consistently for restricted trust account holders
       with supervised accounts.




                                                                                   8
Appendix 1: Scope and Methodology
We conducted our initial review from February 2009 through July 2009, which
included the review of OST’s 2005-2007 contract with private investigation firms
Lamar Associates and the Vander Weele Group. Lamar Associates focused on
locating the top 100 Whereabouts Unknown account holders, and the Vander
Weele Group looked at the top 4,000. After comparing the list of individuals
reportedly found by Lamar Associates in the top 100 to the current Whereabouts
Unknown list posted on OST’s website, the OIG discovered that 10 out of 31
people reportedly found were still on the list.

During the course of the review, the OIG found that 9 of the 10 located account
holders remained Whereabouts Unknown due to preventable delays within OST,
BIA, and OHA. One of the 10 individuals had actually received access to his
account and should not have been on the list. Due to the sensitive nature of this
review, in July 2009, we shared our initial results with the Acting Special Trustee
for American Indians and the Deputy Assistant Secretary for Management at
Indian Affairs. In March 2010, after sharing these results, we verified that OST
had reconciled the Whereabouts Unknown status for 8 of these 9 account holders.
The one account that is still on the Whereabouts Unknown list is there because of
the account holder’s sensitive situation. BIA Social Services and OST have
informed the account holder’s guardians that the account is available should they
need it.

The scope of our review covered trust account holders that were located between
2005 and 2007. We conducted our evaluation in accordance with the Quality
Standards for Inspections as put forth by the President’s Council on Integrity and
Efficiency. Accordingly, we included such tests of records and other procedures
that were considered necessary under the circumstances.

To accomplish our objective, we conducted the following activities:
   •	 Reviewed applicable regulations, policies, and practices as they relate to
       IIM accounts and efforts to resolve Whereabouts Unknown cases.
       Additionally, we reviewed Social Security Administration and Health and
       Human Services policies as they relate to eligibility requirements for
       Supplemental Security Income and Medicaid.
   •	 Determined the universe of account holders located by the private
       investigation firms that remained on OST’s top 100 Whereabouts Unknown
       list and reviewed these cases to determine why individuals located several
       years ago were still considered Whereabouts Unknown.
   •	 Interviewed officials from the Department (i.e., Office of Hearings and
       Appeals), OST, BIA (i.e., Social Services and the Land Titles and Records
       Office), and Tribal Social Services. Additionally, we also interviewed
       located top 100 account holders, their guardians, their representative
       payees, and care facility staff.

                                                                                     9
•	 Reviewed DOI’s quarterly Status Reports to the Court that present the
   accounting of individual Indian beneficiary funds managed by DOI and
   the obstacles to trust reform activities.
•	 Reviewed the OST’s Strategic Plan, which identifies that OST has
   committed to resolving 20 percent of the Whereabouts Unknown accounts
   by fiscal year 2012.
•	 Reviewed prior audits by the OIG and the Government Accountability
   Office but did not find any in recent years that directly relate to
   Whereabouts Unknown IIM accounts.
•	 Reviewed testimony of the DOI’s Associate Deputy Secretary and the
   Special Trustee for American Indians before the Senate Committee on
   Indian Affairs on the Fiscal Year 2007 President’s Budget Request for
   Indian Programs, dated February 14, 2006, which outlines budget
   priorities of adding Fiduciary Trust Officers and Regional Trust
   Administrators to its staff and regularly conducting beneficiary outreach at
   different agencies to provide information on trust reform and locate
   Whereabouts Unknown account holders. The testimony also identified that
   OST had hired a contractor to assist in located Whereabouts Unknown
   individuals. As of December 31, 2005, there were 44,692 Whereabouts
   Unknown accounts with a combined balance of about $64.3 million.




                                                                            10
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
